                                         INSPECTOR GENERAL
                                       DEPARTMENT OFDEFENSE
                                          400 ARMY NAVY DRIVE
                                     ARLINGTON. VIRGINIA 22202-4704




                                                                                         December 4,2003


MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
               MANAGEMENT AND COMPTROLLER)


SUBJECT: Independent Auditor's Report on the Air Force Working Capital Fund Fiscal
        Year 2003 Principal Financial Statements (Report No. D-2004-027)


The Chief Financial Officers Act of 1990, as amended, requires the Inspector General of the
Department of Defense to audit the accompanying Consolidated Balance Sheet of the Air Force
Working Capital Fund as of September 30,2003 and 2002, the related Consolidated Statements
of Net Cost and Changes in Net Position, and the Combined Statements of ~ i n a n c i n and
                                                                                        ~'
Budgetary Resources for the fiscal years then ended. These financial statements are the
responsibility of Air Force management. Air Force is also responsible for implementing
effective internal control and for complying with laws and regulations. We are including the
required reports on internal control and compliance with laws and regulations.

Disclaimer of Opinion on the Financial Statements
The Assistant Secretary of the Air Force (Financial Management and Comptroller)
acknowledged that the Air Force previously identified material weaknesses in internal control
and instances of noncompliance with laws and reguIations that continue to affect the current
period. As a result of those conditions, management acknowledged that the financial data
reported in the financial statements were unreliable. Therefore, we did not perform auditing
procedures to support material amounts on the financial statements. In addition, other auditing
procedures were not performed because Section 1008(d) of the FY 2002 National Defense
Authorization Act requires the Inspector General of the Department of Defense to perform only
the audit procedures required by generally accepted government auditing standards that are
consistent with the representations made by management. These material deficiencies also affect
the reliability of certain information contained in the accompanying Management's Discussion
and Analysis and certain other information-much of which is taken from the same data sowces


' The Office of Management and Budget requires a Consolidated Statement of Financing, instead of the Combined
 Statement of Financing prepared by the Air Force.


     A regular Statement and Account of the Receipts and Expenditures of all public Money
    shall bepublished from time to time. -Constitution of the United States, Article I, Section 9
as the principal financial statement^.^ These deficiencies would have precluded an audit opinion.
As described above, we are unable to express, and we do not express, an opinion on the
referenced financial statements and other information.

Summary of ~nternalControl
In planning and performing our audit, we considered the Air Force internal control over financial
reporting and compliance. We did this to determine our procedures for auditing the financial
statements and to comply with Office of Management and Budget guidance, but not to express
an opinion on internal control. Accordingly, we do not express an opinion on internal control
over financial reporting and compliance because previously identified reportable conditions: all
of which are material, continue to exist in the following areas.

         financial management systems
         policies and practices
         Fund Balance with Treasury
         Inventory
         Operating Material and Supplies
         Government furnished material and contractor acquired material
         accounting entries
         Intragovernmental Eliminations
         Statement of Net Cost
         Statement of Financing

A material weakness is a condition that precludes the entity's internal control from providing
reasonable assurance that misstatements, losses, or noncompliance that are material in relation to
the financial statements would be prevented or detected on a timely basis. Our internal control
work would not necessarily disclose all material weaknesses. See the Attachment for additional
details on material internal control weaknesses.




2
  Other information includes the Supporting Consolidating and Combining Financial Statements, Required
  Supplementary Stewardship Information, Required Supplementary Information, and Other Accompanying
  Information.
3
  Reportable conditions are matters coming to the auditor's attention that, in his or her judgment, should be
  communicated to management because they represent significant deficiencies in the design or operation of internal
  control, which could adversely affect the organization's ability to initiate, record, process, and report financial data
  consistent with the assertions of management in financial statements.

     A regular Statement and Account of the Receipts and Expenditures of all public Money
    shall bepublished from time to time. -Constitution of the United States, Articl'e I, Section 9
   Summary of Compliance with Laws and Regulations
  Ow work to determine compliance with selected provisions of the applicable laws and
- regulations was limited because management acknowledged instances of noncompliance, and
  previously reported instances of noncompliance continue to exist in the following areas:

          Federal financial management systems requirements,
         generally accepted accounting principles, and
          United States Government Standard General Ledger.

  Therefore, we did not determine whether Air Force was in compliance with all applicable laws
  and regulations related to financial reporting. See the Attachment for additional details on
  compliance with laws and regulations.

  In order for DoD to comply with statutory reporting requirements and applicable financial
  systems requirements, the Under Secretary of Defense (Comptroller)/Chief Financial officer is
  developing the DoD-wide Business Enterprise Architecture. Until the architecture is fully
  developed and implemented, the Air Force will be unable to fully comply with the statutory
  reporting requirements.

  We caution that other noncompliance may have occurred asld not been detected. Further, the
  results of our limited procedures may not be sufficient for other purposes. Our objective was not
  to express an opinion on compliance with applicable laws and regulations.

   Management Responsibility
   Management is responsible for:

          preparing the financial statements in conformity with generally accepted accounting
          principles,
          establishing, maintaining, and assessing internal control to provide reasonable assurance
          that the broad control objectives of the Federal Managers' Financial Integrity Act
          (FMFIA) of 1982 are met,




       A regular Statement and Account of the Receipts and Expenditures of all public Money
      shall bepublished from time to time. -Constitution of the United States, Article I, Section 9
                        Reports on Internal Control and
                      Compliance with Laws and Regulations

                                       Internal Control
Management is responsible for implementing effective internal control and for providing
reasonable assurance that accounting data is accumulated, recorded, and reported properly; and
that assets are safeguarded. We did not perform tests of internal control over financial reporting
for the Air Force, and we did not obtain sufficient evidence to support or express an opinion on
internal control. We limited our audit tests because previously identified reportable conditions,
all of which are material, continue to exist in the following areas. These material internal control
weaknesses significantly impair the ability of Air Force to detect and prevent fraud or theft of
assets. A high risk of material misstatements will continue to exist until the internal control
deficiencies are corrected.
Air Force Financial Management Systems

       The Air Force financial management systems do not substantially comply with Federal
       financial management systems requirements. For details, see Notes 1.A. of the financial
       statements.

       The Air Force has not fully implemented the USSGL at the transaction level. For details,
       see Note 1.D. of the financial statements.

       The Air Force is unable to implement fully all elements of GAAP and Office of
       Management and Budget (OMB) Bulletin 01-09 due to limitations in financial
       management processes and systems, including non-financial feeder systems and
       processes. For details, see Note 1.A. of the financial statements.

       The Air Force generally records transactions on a cash (budgetary) basis, not on an
       accrual basis as required by GAAP. The amounts presented in the Consolidated
       Statement of Net Cost are based on budgetary obligations and disbursements and
       collection transactions, and are adjusted to record known accruals for major items and
       known imputed expenses. For details, see Note 19.A. of the financial statements.

       Air Force systems are not transaction driven for budgetary accounts. Therefore, in some
       cases proprietary and statistical accounts are used to develop the Report on Budget
       Execution and Budgetary Resources (SF-133) and Statement of Budgetary Resources for
       reporting budgetary data. For details, see Note 1.C. of the financial statements.
Policies and Practices

        Air Force resource managers do not always maintain adequate documentation or use
        transaction subsidiary ledgers and special journals to support recorded trial balance
        accounts.

                                                                                        Attachment
       Air Force and Defense Finance and Accounting Service personnel do not perform
       reconciliation and system validations to verify the accuracy of accounts receivable fiom
       foreign military sales, progress payments to contractors, and accounts payable fiom the
       material support division.
Fund Balance with Treasury

   The Air Force Working Capital Fund (WCF) continues to experience problem disbursements.
   As discussed in Note 21.B. to the financial statements, unmatched disbursements increased
   sligbtly to $2,813,000 at the end of FY 2003 from $2,548,000 at the end of FY 2002.
   Negative unliquidated obligations decreased significantly to $6,498,000 at the end of
   FY 2003 compared to $1 1,616,000 at the end of FY 2002.

   In addition, Note 5 to the financial statements showed that the accounts receivable line item
   balance was reduced by $17,63 1,700 to close the undistributed collections general ledger
   account. Simi1arly;Note 12 to the financial statements showed that the accounts payable line
   item was reduced by $580,943,000 to close the undistributed disbursements general ledger
   account.

Balance Sheet

       Property, Plant, and Equipment values cannot be verified in accordance with Statement of
       Federal Financial Accounting Standards (SFFAS) No. 6, "Accounting for Property, Plant,
       and Equipment." Further, Property, Plant, and Equipment has not been properly
       recorded. For details, see Note 10 of the financial statements.

      Air Force supply management systems do not provide sufficient audit trails to confirm
      and value the in-transit inventory reported as part of inventory held-for-sale on the
      Consolidated Balance Sheet.
Operating Materials and Supplies

   Cost of Goods Sold and Work In Progress are not recorded in accordance with SFFAS No. 3,
   "Accounting for Inventory and Related Property." Instead of using historical costs, the
   Air Force WCF values operating material and supplies based on standard price. Further
   uncertainties exist regarding the existence and completeness of quantities used to derive the
   balances reported in the Balance Sheet for operating material and supplies. For details, see
   Note 1.M. of the financial statements.

Inventory

   Cost of Goods Sold and Work In Progress are not entirely recorded in accordance with
   SFFAS No. 3, "Accounting for Inventory and Related Property." Instead of using historical
   cost, the Air Force WCF values most inventory at latest acquisition cost. Further
   uncertainties exist regarding the existence and completeness of quantities used to derive the
   balances reported in the Balance Sheet for inventory. For details, see Note 1.M. of the
   financial statements.
Government Furnished Material

   The General Property, Plant,. and Eqdipment line item on the Balance Sheet does not include
   all Government hmished equipment in the hands of contractors whose value exceeds the
   czipitalization threshold. The Air Force is developing polikies and a contractor reporting
   system so that the Air Force WCF will report appropriate values. For details, see Note 1.O.
   of the financial statements.

Accounting Entries

   The Air Force had not implemented adequate procedures to support and document all journal
   vouchers in the Air Force WCF. For details, see Note 1 .A. of the financial statements.

IntragovernmentaI Transactions

      The Air Force cismot accurately identify all intragovernmental transactions by customer;
      and cannot be assured that transactions occurring between entities within DoD, or two or
      more Federal agencies, are eliminated. For details, see Note 1.G. of the financial
      statements.

       The Air Force cannot reconcile intragovernmental accounts receivable or accounts
      'payable balances, or reconcile intragovernmental revenue balances with its trading
       partners. For details, see Note 1.G. of the financial statements.

Statement of Net Cost

      The Air Force does not accumulate cost information as required by GAAP. The
      Air Force identifies costs in the Consolidated Statement of Net Cost based on the major
      appropriation groups funded by Congress instead of being based on major programs and
      activities as set forth in SFFAS No. 4, "Managerial Cost Accounting Concepts and
                      ~ Federal Government." For details, see Note 1.D. of the financial
      Standards f o the
      statements.

      The Air Force WCF has not fully implemented the percentage-of-completion revenue
      accounting method for revenue and costs as required by SFFAS No. 7, "Accounting for
      Revenue and Other Financing." For details, see Note 1.E. of the financial statements.

      The Air Force does not recognize an allowance for loss on accounts receivable amounts
      with other Federal agencies. For details, see Note 1.K. of the financial statements.

Statement of Financing

   The Air Force cannot reconcile budgetary data with proprietary expenses and assets
   capitalized without making unsupported adjustments to resolve differences. For FY 2003,
   this adjustment was $1.1 billion compared to a negative $1.4 billion adjustment in FY 2002.
   Additionally, the Air Force prepared the Statement of Financing on a combined basis, instead
   of the consolidated basis required by OMB Bulletin No. 01-09, "Form and Content of
   Agency Financial Statements." For details, see Note 22 of the financial statements.
                            Compliance with Laws and Regulations
    Management is responsible for compliance with existing laws and regulations related to financial
    reporting. Our work to determine compliance with selected provisions of the applicable laws
'   and regulations was limited because management ack;lowledged instances of noncompliance,
    and previously reported instances of noncompliance continue to exist. Therefore, we did not
    determine whether Air Force was in compliance with selected provisions of all applicable laws
    and regulations related to financial reporting. Our objective was not to express an opinion on
    compliance with applicable laws and regulations.

    The Air Force is required to comply with the following financial management systems reporting
    requirements.

    The Federal Financial Management Improvement Act of 1996 requires Air Force to establish and
    maintain financial management systems that comply substantially with the Federal financial
    management systems requirements, applicable generally accepted accounting principles, and the
    United States Government Standard General Ledger at the transaction level. In addition, the
    Federal Managers' Financial Integrity Act of 1982 requires Air Force to evaluate the systems and
    to annually report whether those systems are in compliance with applicable requirements. The
    Chief Financial Officers Act of 1990 requires DoD to prepare a 5-year Financial Management
    Plan describing activities that DoD will conduct during the next 5 years to improve financial
    management.

    The Air Force acknowledged that many of its critical financial management and feeder systems
    do not comply substantially with the Federal financial management systems requirements,
    Federal accounting standards, and the U.S. Government Standard General Ledger at the
    transaction level. In an attempt to comply with statutory reporting requirements and applicable
    financial systems requirements, DoD is developing a DoD-wide Business Enterprise
    Architecture. The architecture is intended to provide a "blueprint" of the Department's financial
    management systems and processes to initiate a comprehensive financial management reform
    effort. Until the architecture is fully developed and implemented, Air Force will be unable to
    fully comply with the statutory reporting requirements. Therefore, we did not perform tests of
    compliance for these requirements.

                                        Audit Disclosures
    Based on audit procedures performed, we obtained a limited understanding of internal control.
    However, we were unable to obtain sufficient understanding of internal control in order to plan
    the audit and to determine the nature, timing, and extent of tests to be performed.
    The Assistant Secretary of the Air Force (Financial Management and Comptroller)
    acknowledged to us on June 20,2003, that the Air Force financial management systems do not
    comply substantially with Federal financial management system requirements, GAAP, the
    USSGL at the transaction level. These deficiencies in Air Force critical financial feeder systems
    limited its ability to present information accurately and in conformance with GAAP. As a result,
    we were unable to obtain adequate evidential matter to form or express an opinion on the
    financial statements, internal control, and compliance with laws and regulations. Furthermore,
we were unable to design the audit to provide reasonable assurance of detecting material
misstatements resulting from violations of provisions of contracts or grant agreements that have
a direct &d material effect on the determination of financial statement amounts or other financial
data significant to the audit objectives.                                    -
In addition, we were unable to conduct sufficient audit follow-up work related to the deficiencies
identified in the N 2002 Air Force financial statement audit. Finally, we did not perfonn audit
tests of Air Force compliance with certain provisions of the Antideficiency Act, Debt Collection
Improvement Act, Federal Ckedit Reform Act, Pay and Allowance System for Civilian
Employees, and the Prompt Payment Act.
This report does not include recommendations to correct material control weaknesses and
instances of noncompliance because previous audit reports contained recommendations for
corrective actions.
